_______________

No.
_______________
in the

Supreme Court
of the

United States
Term,
_______________

MICHAEL MEADOWS,
Petitioner,

vs.

UNITED STATES OF AMERICA,
Respondent.

_______________
ON PETITION FOR A WRIT OF CERTIORARI FROM
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
____________

Gregory C. Sassé
6642 Silvermound Drive
Mentor, OH 44060
(440) 488-1919
Fax (440) 974-8194
gregory.sasse@gmail.com

Counsel for Petitioner

QUESTIONS PRESENTED
I.
Does drug profile testimony have any legitimate use as trial evidence?
II.
Does the cumulative error doctrine exist and, if so, can errors to which no
objections are made be accumulated when they demonstrate a denial of due process?

ii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

ii

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

iv

JURISDICTION

1

CONSTITUTIONAL PROVISION INVOLVED

2

OPINION BELOW (November 30, 2018)

X

Appendix A

STATEMENT OF THE CASE

23

REASONS FOR GRANTING THE WRIT

28

1. Because drug profile testimony is in constant use, it is not a fair way to
present expert opinions, and the parameters of its legitimate use are not
clearly defined, as demonstrated by the caselaw and by the opinion of the
Sixth Circuit in this case.
2. Because this court has not determined if the cumulative error doctrine
exists and whether errors to which no objections are made may be
accumulated when they demonstrate a denial of due process.
CONCLUSION …………………………. …………………………….……..…….

34

APPENDIX ………………………………………………………………………… .. 35

iii

TABLE OF AUTHORITIES
Cases
Berger v. United States, 295 U.S. 78 (1935)…………………………………………….. 34
Cooper v. Sowders, 837 F.2d 284, 286 (6th Cir.1988)………………………………….. 34
Donnelly v. DeChristoforo, 416 U.S. 637, 643 (1974)……………………………… 32, 35
Jones v. Woods, No. 2:10–CV–14191, 2012 WL 4692999 (E.D. Mich Oct. 3, 2012)
(unpublished)……………………………………………………………………………… 25
Reid v. Georgia, 448 U.S. 438, 440, 100 S.Ct. 2752, 2753-54, 65 L.Ed.2d 890 (1979)
(per curiam),……………………………………………………………………………….. 21
United States v. Agurs, 427 U.S. 97, 108 (1976)……………………………………..... 32
United States v. Bagley, 473 U.S. 667, 676 (1985) …………………………..……….. 32
United States v. Barlin, 686 F.2d 81 (2d Cir.1982) …………………………………… 37
United States v. Beltran-Rios, 878 F.2d1208, at 1210(9th Cir.
1989) …………………………………………………………………………………22, 23, 24
United States v. Campbell, 843 F.2d 1089, 1091, n. 3 (C.A.8, 1988) ……………… 21
United States v. Carter, 901 F.2d 683, 684 (8th Cir.1990) …………………………. 22
United States v. Cruz, 981 F.2d 659, 663 (2d Cir.1992) …………………………….. 21
Walker v. Engle, 703 F.2d 959, 968 (6th Cir.1983). ………………………………….. 34
United States v. Espinosa, 827 F.2d 604, 612 (C.A.9, 1987)…………………….…... 27
United States v. Francis, 170 F.3d 546, 551 (6th Cir. 1999)………………………... 38
United States v. Gomez-Norena, 908 F.2d 497, 501 (9th Cir.), cert. denied, 498 U.S.
947, (1990),……………………………………………………………………………….. 23
United States v. Hawkins, 595 F.2d 751 (D.C.Cir.1978), cert. denied, 441 U.S. 910
(1979)……………………………………………………………………………………… 37
United States v. Hernandez-Cuartas, 717 F.2d 552, 555 (11th Cir.1983))….……. 22
United States v. Johnson, 735 F.2d 1200, 1202 (9th Cir.1984)…………………….. 24
United States v. Jones, 913 F.2d 174, 177 cert. denied, 498 U.S. 1052 (1991);. 21, 22
United States v. Lewis, 556 F.2d 385, 389 (6th Cir. 1977)………………………….. 21
United States v. Lewis, 10 F.3d 1086, 1089 (4th Cir.1993)…………………………. 38
United States v. Lim, 984 F.2d 331, 334–335 (C.A.9, 1993)………………………… 25
United States v. Lui, 941 F.2d 844, 847- 48 (9th Cir. 1991)………………………… 25
iv

United States v. McCaleb, 552 F.2d 717 (C.A. 6th, 1977)………………………… 25-6
United States v. McDonald, 933 F.2d 1519, 1521 (C.A.10, 1991)………………….. 21
United States v. Pearce, 912 F.2d 159, 163 (6th Cir.1990)…………………………. 26
United States v. Quigley, 890 F.2d 1019, 1023-24 (8th Cir.1989), cert. denied, 493
U.S. 1091 (1990)………………………………………………………………….... 22, 26
United States v. Sanchez, 118 F.3d 192, 198 (4th Cir.1997)………………………. 38
United States v. Solivan, 937 F.2d 1146, 1153 (6th Cir.1991)…………………….. 37
United States v. White, 890 F.2d 1012, 1014 (8th Cir.1989), cert. denied, 497
U.S.1010 (1990) ………………………………………………………………………… 23

v

______________

No.
__________
in the

Supreme Court
of the

United States
Term,
_______________

MICHAEL MEADOWS,
Petitioner,
vs.

UNITED STATES OF AMERICA
Respondent.

_______________
ON PETITION FOR A WRIT OF CERTIORARI FROM
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_____________
The Petitioner, Michael Meadows, respectfully prays that a writ of certiorari
issue to review the judgment and opinion of the United States Court of Appeals for
the Sixth Circuit entered in the above-entitled proceeding on August 7, 2020.
OPINION BELOW
The Sixth Circuit’s opinion in this matter was not published and is attached
hereto in Appendix 1.
JURISDICTION
The Sixth Circuit denied Petitioner’s appeal on August 7, 2020. This petition is

6

timely filed. The jurisdiction of this Court is invoked under 28 U.S.C. § 1291 and
Supreme Court Rule 12.

7

CONSTITUTIONAL PROVISION INVOLVED
The Fifth Amendment to the United States Constitution states:
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a grand jury, except in cases arising in the
land or naval forces, or in the militia, when in actual
service in time of war or public danger; nor shall any
person be subject for the same offense to be twice put in
jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use,
without just compensation.

8

STATEMENT OF THE CASE
Petitioner was accused of being a Felon in Possession of a Firearm and
Possession with Intent to Distribute Fentanyl and Possession of a Firearm in
furtherance of drug trafficking. Petitioner entered a not guilty plea and the case
went to trial.
During the Voir Dire the Court instructed the jury, “Now, you hear ‘United
States of America’ or ‘State of Ohio’ instead of an actual victim's name because … a
crime against one person is a crime against everyone within that jurisdiction. … It
would be the Governmental entity, United States of America or State of Ohio, and
again because a crime against you is a crime against everyone within that
jurisdiction.
“So that's why -- let's say for the sake of argument you were a victim of an
aggravated robbery. It's not your name, John Doe or Jane Doe, versus the person
that you allege committed the crime. It would be the Governmental entity, United
States of America or State of Ohio, and again because a crime against you is a crime
against everyone within that jurisdiction.”
In opening statement, the Government told the jury that they would hear that
a federal agent obtained a search warrant for Petitioner's residence and vehicle,
seeking evidence of trafficking of fentanyl and heroin, and of possession of firearms.
The Government said that based upon the “intelligence” the agent had gathered, the
agent approached Petitioner at Petitioner’s place of employment with a search
9

warrant. The Government said that the agent asked Petitioner to assist in
prosecuting Petitioner's supplier, but Petitioner refused to name or to cooperate in
prosecuting his supplier. In response to the agent’s inquiry, Petitioner said, “I can’t
say that.” The agent conducted the search and found heroin, a loaded handgun, over
$8,600.00 in currency, a razor, and sleeping pills.
The Government told the jury that they would hear from an Akron detective
with over 20 years of experience in drug trafficking investigations. The Government
said the detective would explain guns and drug trafficking. The Government told the
jury that they would hear that Petitioner’s gun travelled in interstate commerce.
The Government’s first witness was the case agent employed by the Food and
Drug Administration, Office of Criminal Investigations. The agent testified to his
extensive experience investigating drug trafficking offenses, having executed many
drug trafficking search warrants. The agent testified to having investigated drug
trafficking offenses involving illegal drugs which come into the Northern District of
Ohio from the Caribbean.
The agent testified that he obtained a search warrant for Petitioner’s
residence looking for items associated with drug trafficking.
The agent was asked in general what “steps” he took in order to execute a
search warrant. The agent mentioned conducting surveillance, criminal record
check, other records, the criminal target’s background, traffic to the place to be
searched, concerns about safety including the safety of bystanders, and whether or
10

not there are co-conspirators.
The agent was asked about general safety concerns when executing a drug
search warrant. In response, the agent indicated that airborne contaminants and
guns were primary concerns because drugs and guns go together. The agent testified
that based upon his training and experience, drug trafficking is typically a cash
business where drug dealers fear being robbed.
The agent was asked about the search warrant. The agent testified, “When I -the investigation culminated to the point where I had probable cause, I obtained a
search warrant and determined that [Petitioner] was trafficking in heroin and drugs,
and got the search warrant.”
The agent was asked about the manner in which he executed Petitioner’s
search warrant. The agent testified that he did not want to make an exigent entry
into the residence, stressing again that drug offenses and guns go hand-in-hand,
with a high probability that there would be firearms present. The agent indicated
that he wanted to acquire consent in executing the warrant, in part for reasons of
safety. The agent indicated that he wanted to keep the warrant secret so that other
individuals involved in illegal drugs with Petitioner would not be alerted to law
enforcement’s awareness of Petitioner’s involvement in illegal drugs. The agent
indicated that this type of investigation had a tendency to expand to encompass
additional individuals. The agent indicated that he wanted the investigation of
Petitioner to expand to encompass additional individuals.
11

The agent was asked what “steps” he took to execute the Petitioner’s search
warrant. The agent indicated that all the agents and personnel who would assist in
executing the warrant met at the local police station; everyone was briefed about
their duties in different possible scenarios. The agent and two other FDA agents
went to Petitioner's place of employment. The agent and the other FDA agents
located Petitioner's supervisor and informed him of their reason for being there, i.e.,
a search warrant for Petitioner’s residence and vehicles and said that they wanted to
talk to Petitioner.
Petitioner was confronted and informed that the agents did not intend to
arrest him that day. The agent indicated that he was seeking Petitioner’s
cooperation in executing the search warrant to avoid any damage to Petitioner's
house. Petitioner provided a key to his residence and stated that he had heroin and a
gun in his bedroom.
The prosecutor asked if the agent had any further conversation with
Petitioner in regards to seeking his cooperation. At that time the agent said that
Petitioner volunteered that one of his biggest customers is a white male named Jim
but would not elaborate. The agent said that he asked Petitioner to identify his
supplier but that Petitioner said, "I can't say that." The interview was discontinued.
The agent explained to Petitioner that his cooperation was imperative and that the
cooperation had to be timely to encompass Petitioner’s drug suppliers.
The prosecutor asked if the agent made further attempts to obtain Petitioner’s
12

cooperation against his source. The agent said that he contacted Petitioner three
weeks later to see if he would consider cooperating against his drug source but
Petitioner remained silent.
The agent was asked about safety concerns regarding the dangers of Fentanyl
in executing the search warrant for Petitioner’s residence. The agent testified that
airborne Fentanyl could penetrate through the skin, causing immediate serious
health problems, such as cardiac arrest. The agent testified that was why the agents
were issued Narcan, wore rubber gloves, leather gloves, and contaminant masks.
The agent testified to having found three bundles of currency totaling
$8,600.00, a digital scale, a razor blade, a loaded firearm, sleepinall, rizzy (a possible
cutting agent), and a chunky rock of off-brown substance in Petitioner ’ bedroom.
The agent testified that his knowledge of rizzy was based upon a police departmentissued bulletin.
The agent was asked about procedures involving controlled purchases of
drugs, which encompassed the need to know the street value of drugs. The agent
testified concerning the danger to an informant sent to purchase illegal drugs if the
informant were given the wrong amount of currency or if something occurred that's
not customary, or that is out of the ordinary, that would raise suspicions which
probably would result in the informant being hurt or killed. The agent testified that
the street value of a gram of heroin was between one hundred to $130 per gram but
that he did not know the street value of Fentanyl.
13

Cross examination of the agent disclosed: that Petitioner was not given
Miranda rights; that although it is common for drug dealers to have throwaway cell
phones, Petitioner had none; that Petitioner had no packaging materials for selling
drugs, such as baggies or aluminum foil; that Petitioner’s conversation with the
agent was not recorded; that Petitioner had a scale which could be used by a drug
user who was not selling drugs. The court prohibited inquiry concerning the
confidential source who provided the “intelligence” that Petitioner was dealing
drugs.
The government was allowed to present Petitioner's statements wherein he
informed the agents regarding the location of the firearm and heroin which
Petitioner admitted again at a pretrial. However, the court would not permit
testimony concerning the remainder of Petitioner’s statement in which he
complained that the government was attempting to prove that he sold drugs
facilitated with the use of a gun without any testimony that Petitioner had sold
drugs or possessed a gun in connection therewith.
The Government’s next witness was Detective Brian Callahan, Detective
Narcotics Bureau with the Akron Police Department. The detective testified that he
had worked 17 years in the Narcotics Bureau of the Akron Police Department and
that the only crimes he investigated were drug traffickers.
The detective testified that he had absolutely nothing to do with the
investigation of Petitioner and that he did not know why he had been called as a
14

witness. The detective could only guess at why he was called as a witness, whether
or not he was being called as an expert, or even why he was asked the questions he
was asked. The detective emphatically denied testifying to expert opinions.
The detective was asked what “steps” he took in the typical drug trafficking
investigation. Those “steps” included: surveillance, collection of different types of
records, bank records, utility records, traffic stops, long-term, short-term traffic,
development of sources, the making of controlled buys, obtaining search warrants,
the execution of search warrants.
The detective was asked how many drug trafficking search warrants he had
executed. He responded, “Hundreds.”
The detective was asked if he might investigate drug traffickers overseas or in
other states. He answered in the affirmative.
Again, the detective was asked specifically what “steps” he took when
preparing to execute a drug trafficking search warrant. The detective profiled the
investigative techniques employed in drug trafficking investigations, to-wit:
surveillance, controlled buys, traffic stops, utility records. This time the detective
included the use of force, potential violence, firearms, and bullet-proof vests. The
detective again testified to the profile of guns found in drug traffickers’ bedrooms
and other places. The detective was asked if, based upon his experience, he had
learned from co-operating drug traffickers why firearms were typically present in
their premises. The detective said that it was fear of robbery.
15

The prosecutor asked whether, after the detective executed drug trafficking
search warrants, any of the targets turned and cooperated? The detective answered
in the affirmative.
The prosecutor asked if the detective learned, given his experience, why
firearms were typically present in a drug trafficker’s residence. The detective
answered “like I stated before” narcotics were like currency and oftentimes drug
traffickers were robbed by other drug traffickers.
The prosecutor asked the detective to outline the precautions he typically took
to prepare for execution of a fentanyl search warrant. The detective responded that
his team are issued gloves and Narcan; gloves because fentanyl can be absorbed
through the skin. The detective was asked: if he had ever seen fentanyl collected, the
law enforcement policy in regards to fentanyl, and if he had ever before seen heroin
and fentanyl trafficked together. He answered in the affirmative. The detective was
asked about his experience regarding how often the drug dealers do not know what
is in the drugs they deal. He answered that was not uncommon. The detective was
asked about Carfentanil’s dangerously addictive characteristics.
The detective could not give a personal usage quantity of illegal drugs.
The prosecutor again asked about the kinds of general “things” the detective
typically seizes in these searches. The detective responded that narcotics, firearms,
currency, scales, baggies, and money counters are what they search for in drug
trafficking search warrants, but they do not always find them all.
16

The detective testified that he had no knowledge of sleepinall. The detective
was asked profiling questions about the significance of sleeping pills possessed by
drug traffickers in drug trafficking investigations. The detective responded that
sleeping pills could be used as a cutting agent for illegal drugs.
The prosecutor closed his direct examination emphasizing that the detective
knew nothing about Petitioner’s case and had not viewed any exhibits.
Cross examination of the detective disclosed: that guns are not possessed only
by drug dealers but that citizens possess guns for protection and usually keep them
in their bedrooms as did Petitioner; that although it is usual for drug dealers to have
throwaway cell phones Petitioner had none; that although it is usual for drug dealers
to have multiple cell phones, Petitioner had none; that although it is usual for drug
dealers to keep ledgers, Petitioner had none; that although it is usual for drug
dealers to have baggies to package drugs for resale, Petitioner had none; that
although it is usual for drug dealers, Petitioner had no other packaging materials,
such as, a supply of aluminum foil for selling drugs; that Petitioner’s conversation
was not recorded; that Petitioner had a scale which could be used by a drug user who
was not selling drugs; and that Petitioner worked a regular labor-intensive job.
The prosecutor asked how and when digital scales and razors are typically
found during a search and used by a typical drug trafficker. The detective answered.
The prosecutor asked if keeping currency was another way for a drug dealer to keep
something akin to a ledger. The detective answered in the affirmative.
17

ATF Special Agent John Laurito testified to the identification and interstate
nexus of the firearm and the ammunition.
Heather McCauley, FDA chemist, testified to the procedures during Lab
identification of the drugs. The Lab report was introduced without objection.
The prosecutor again asked the exact nature of the items presented to the
Lab, the Lab’s safety procedures which were what had already been adduced, and
analysis of same.
Petitioner did not testify and the defense did not put on a case, so there was
no rebuttal case.
In the prosecution’s closing argument, they stressed that the illegal substance
Petitioner possessed was terribly dangerous to the public, such that breathing it if
airborne or even touching it was deadly. The prosecution said that Petitioner was
“... a person who is out there selling a substance so dangerous and so deadly that
every single person who knows what it is involved in the investigation, from the law
enforcement officers to the person who inspected it at the laboratory, had to take
extra caution, extra safety measures to keep themselves from touching it, keep their
hands protected, their mouths protected in case it went airborne, because just
touching it could result in such a dangerous and possibly deadly reaction, they're
doing everything they can to protect themselves but still investigate this case.”
The prosecution argued that when Petitioner was asked to identify his drug
source, Petitioner chose to remain silent.
18

The Defense pointed out in its closing argument that not one witness observed
Petitioner sell drugs and that no packaging materials were found nor was Petitioner
ever observed packaging drugs for sale, and also that no multiple cell phones or
throwaway phones were found. Furthermore, that Petitioner’s purported admission
that he had one customer was unbelievable, whether it was made up or due to
inaccuracy in hearing what Petitioner said was not specified.
In its rebuttal close the prosecution claimed they presented Callahan, not for
expert opinions based upon the evidence, but for his experience dealing with drug
trafficking investigations.
The prosecution argued that Petitioner’s drugs were not just heroin, a poison
which is bad enough, but that Petitioner had stronger drugs, such as Fentanyl,
Carfentanil, and cocaine. The prosecution argued that Petitioner was “out there”
selling “a substance so dangerous and so deadly” that experts had to take extra
precautions to keep from touching it or even breathing the fumes. The prosecution
argued that the detective had explained that the citizens of the Northern District of
Ohio who used this drug, comprised of many compounds, were the “testers”
regarding its lethality.
The prosecution maintained that the detective was brought in to testify
because of what he has seen in thousands of drug trafficking search warrants, and
that after drug traffickers are caught, law enforcement gathers intelligence. Some
traffickers cooperate, as this opportunity was given to Petitioner. Law enforcement
19

learns from the cooperators.
The prosecution argued that “law enforcement are the experts, right?” The
detective established that drug dealers have learned to keep firearms ready at hand,
and all the other things to which the detective testified from his real-life experience.
The agent also testified from his real-life experience. The prosecution conceded that
they had presented no testimony of hand to hand drug transactions. However, the
prosecution asked the jury to recall what the agent did to obtain the search warrant,
calling to the jury’s attention the undisclosed “intelligence” the agent obtained which
indicated to the agent’s satisfaction that Petitioner was a drug trafficker.
A verdict of guilty on all counts.

REASONS FOR GRANTING THE WRIT
1. Because drug profile testimony is in constant use and the parameters of
its legitimate use are not clearly defined, as demonstrated by the
caselaw and by the opinion of the Sixth Circuit in this case.

Petitioner first submits that certiorari should issue because drug profile
testimony constantly is presented across the nation even though the parameters of its
legitimate use are not clearly defined. The Sixth Circuit’s holding that drug profile
testimony, when presented not as opinion but as substantive evidence of guilt, is
nevertheless opinion, is an example. (Appendix 1, p.4) This holding is in conflict with

20

other circuits and even with the Sixth Circuit’s own precedent. The proper use of
profile evidence is not clearly understood.
While this Court long ago defined a drug courier profile as “a somewhat
informal compilation of characteristics believed to be typical of persons unlawfully
carrying narcotics.” Reid v. Georgia, 448 U.S. 438, 440, 100 S.Ct. 2752, 2753-54, 65
L.Ed.2d 890 (1979) (per curiam), its proper application is unclear. Similarly, drug
profile evidence has been described as an “informal compilation of characteristics often
displayed by those trafficking in drugs.” United States v. McDonald, 933 F.2d 1519,
1521 (C.A.10, 1991), and United States v. Campbell, 843 F.2d 1089, 1091, n. 3 (C.A.8,
1988). As there is little difference between drug courier profile testimony and drug
dealer profile testimony, they will be treated together.
Lower courts have struggled with the proper use of “drug profile” evidence.
Courts have said that when it is presented as substantive evidence of guilt it is per se
erroneous. United States v. Lewis, 556 F.2d 385, 389 (6th Cir. 1977). Courts similarly
have said that: “Every defendant has a right to be tried based on the evidence against
him or her, not on the techniques utilized by law enforcement officials in investigating
criminal activity.” United States v. Cruz, 981 F.2d 659, 663 (2d Cir.1992) and “guilt
may not be inferred from the conduct of unrelated persons;” see also United States v.
Jones, 913 F.2d 174, 177 cert. denied, 498 U.S. 1052 (1991).

21

Courts have deemed drug courier profiles to be inherently prejudicial because
of the potential such inexact collections of characteristics have for including innocent
citizens as profiled drug couriers and that the profiles represent nothing more than
the opinion of the investigating officers. United States v. Beltran-Rios, 878 F.2d1208,
at 1210 (9th Cir. 1989) (quoting United States v. Hernandez-Cuartas, 717 F.2d 552,
555 (11th Cir.1983)). See also Jones, supra; (“[T]he use of expert testimony as
substantive evidence showing that the defendant ‘fits the profile and, therefore, must
have intended to distribute the cocaine in his possession’ is error.”) (quoting United
States v. Quigley, 890 F.2d 1019, 1023-24 (8th Cir.1989), cert. denied, 493 U.S. 1091
(1990)); United States v. Carter, 901 F.2d 683, 684 (8th Cir.1990) (“Drug courier
profiles are investigative tools, not evidence of guilt.”)
In Quigley, the Eighth Circuit faced a situation similar to that which we find
here. There “the drug courier profile was presented at trial through the testimony of
a narcotics agent, in the guise of an expert, as a technique for identifying a drug
offender.” Id. at 1022. The agent delineated several characteristics of the profile and
tied them to [the defendant] (purchasing tickets shortly before departure, paying for
them with cash, checking no baggage, providing no local address, and exhibiting
nervousness at an airport). The court noted that while the agent “did not directly say
that he thought [the defendant] was guilty of the offense charged because he fit the
profile, that was the clear implication of his testimony.” Id. at 1024.

22

The Ninth Circuit explained the difficulties in using this evidence as follows:
“Drug courier profile evidence has been admitted, however, in certain
limited circumstances. In Beltran-Rios, we allowed the use of drug courier
profile evidence for impeachment purposes after the defendant opened the door
to this line of questioning by emphasizing his apparent poverty. 878 F.2d at
1211. In United States v. Gomez-Norena, 908 F.2d 497, 501 (9th Cir.), cert.
denied, 498 U.S. 947, (1990), we admitted the use of drug courier profile
testimony as background material to explain how the arrest occurred.
Significantly, in Gomez-Norena the district judge twice cautioned the jury to
consider the testimony only for that purpose.
“The government argues that Agent Wood's testimony was admissible
under a third exception: when the testimony is necessary to explain the modus
operandi of the defendant. In United States v. White, 890 F.2d 1012, 1014 (8th
Cir.1989), cert. denied, 497 U.S. 1010 (1990), the Eighth Circuit found no “clear
abuse of discretion” when the district court admitted drug courier profile
testimony for the limited purpose of explaining modus operandi. The court
acknowledged, however, that it was ‘not indicat[ing] any belief that the district
court followed the best course in admitting all the evidence that was admitted,
or that we favor admission of such evidence in general.’ Id.

23

“The question of whether drug courier profile evidence may be admitted
to show a modus operandi is a difficult one, since the purpose of modus operandi
testimony, to “alert [the jury] to the possibility that combinations of seemingly
innocuous events may indicate criminal behavior,” United States v. Johnson,
735 F.2d 1200, 1202 (9th Cir.1984), is precisely the reason why drug courier
profile testimony is so dangerous. See Beltran-Rios, 878 F.2d at 1210 (“Drug
courier profiles are inherently prejudicial because of the potential they have for
including innocent citizens as profiled drug couriers.”). While it may be
appropriate to recognize a modus operandi exception in certain cases, such as
those involving complex drug-smuggling conspiracies, we need not reach that
issue because we conclude on the facts of this case that the admission of drug
courier profile evidence was improper.
“Under Fed.R.Evid. 702, “[i]f scientific, technical, or other specialized
knowledge will assist the trier of fact to understand the evidence or to
determine a fact in issue, a witness qualified as an expert ... may testify thereto
in the form of opinion or otherwise.” Modus operandi evidence is admitted to
help the jury “to understand complex criminal activities.” Johnson, 735 F.2d at
1202. To prosecute Lui, however, the government had no need to explain a
complex criminal scheme. On the contrary, Lui was caught red-handed with
suitcases full of heroin.

24

“There was thus little, if any, probative value to offset the potential
prejudice caused by Agent Wood's testimony regarding drug courier profiles. By
providing such testimony and tying it to Lui, Agent Wood took items that were
perfectly innocent-use of a hard-sided suitcase, traveling for the stated purpose
of visiting a relative-and turned them into evidence of guilt. Nor were the jurors
provided with any limiting instruction to prevent them from using the profile
evidence as a basis for finding guilt. By admitting the drug courier profile
evidence, the district court abused its discretion.” United States v. Lui, 941 F.2d
844, 847-48 (9th Cir. 1991).
Some courts view profile evidence “[as] inherently prejudicial to the defendant
because the profile may suggest that innocuous events indicate criminal activity.”
United States v. Lim, 984 F.2d 331, 334–335 (C.A.9, 1993). In the same vein, a federal
court held that a detective’s testimony regarding the items in a bedroom was so
intertwined with his explanation for why those items were indicative of drug dealing
that he implicitly expressed his opinion that, based on the usual reasons for possessing
the items, that the drugs were intended for sale. Jones v. Woods, No. 2:10–CV–14191,
2012 WL 4692999 (E.D. Mich Oct. 3, 2012) (unpublished).
Misuse of this evidence permits, perhaps encourages, prosecutorial misconduct.
The Sixth Circuit, in implicitly contradictory findings, held that a drug courier
profile by itself provides no probable cause. United States v. McCaleb, 552 F.2d 717

25

(C.A. 6th, 1977). Yet, it later held that drug courier profile testimony is admissible to
demonstrate why a defendant was stopped for investigation. United States v. Pearce,
912 F.2d 159, 163 (6th Cir.1990).
Courts have noted that often there is a very fine line between the probative use
of profile evidence as background or modus operandi evidence and its prejudicial use
as substantive evidence, thus, the admissibility of profile evidence must effectively be
determined case by case. A difficulty arises in cases in which profiles are admitted
because the evidence of a drug profile must resemble, to some degree, the defendant's
own circumstances and characteristics in order to be relevant, MRE 401, but when the
profile begins to resemble the defendant's circumstances and characteristics too
closely, the profile appears increasingly as substantive evidence of guilt. See Quigley,
890 F.2d at 1023. Once the profile is found to be relevant, courts face a gray area in
which it may be obvious that the criminal profile circumstances and characteristics so
closely resemble those of the defendant as to be substantive evidence usurping the
province of the jury, yet the use of the profile also may be the only way to explain to
the jury the circumstantial evidence in the case.
Even where a police officer expert witness' testimony is “founded solely on
observations of innocent conduct,” courts have upheld admission of the expert's
opinion that the “defendant's activities indicated that he acted in accordance with

26

usual criminal modus operandi.” United States v. Espinosa, 827 F.2d 604, 612 (C.A.9,
1987).
Pre-packaging evidence as a profile is prejudicial and unnecessary. Rather than
a litany of testimony that drug dealers/couriers do 1, 2, 3, 4, 5, and 6, followed by
testimony that the defendant exhibits some or all of these factors, it would be better
to present such testimony explaining that factor 1, say a digital scale, can be used by
drug dealers and the defendant had one, without combining it with other factors. Prepackaging evidence as a profile impinges upon the jury’s objective assessment of the
evidence. Facts and possible inferences indicating guilt drawn from them are more
fairly presented piecemeal. If enough facts and inferences are presented and accepted
by the jury, they will convict without a pre-made package of factors presented by law
enforcement as sufficient to establish guilt.
The harm from the illicit use of profile testimony is two-fold; First, a jury’s
assessment of the applicability of inferences from proven facts and their combined
sufficiency to establish criminal intent is irrevocably tainted by their presentation of
the facts as a package, judged by law enforcement to be sufficient and presented with
the approval and the apparent endorsement of the court. A jury cannot but be
influenced by such a presentation and that jury’s determination of the sufficiency of
the evidence no longer can be objective. Criminal intent may be concluded by relying
upon law enforcement’s judgment from a pre-made profile package of innocuous facts

27

combined with the apparent endorsement of the court that the combination is legally
sufficient. This bell cannot be un-rung.
Second, law enforcement may present a profile with factors which go beyond
provable facts, inviting that guilt be inferred from facts that have not been proven at
trial and (unknown to the jury) cannot be proven. In the case at bar the court confused
modus operandi expert opinion testimony with profile testimony improperly presented
as substantive evidence of guilt including inferences not tied to provable facts.
The jury was fed factors that are part of a model of a prototypical drug dealer
with intent to distribute drugs, when only some of the evidence fit that model. The
jury was asked to draw inferences of intent to distribute from a sloppy mix of profile
factors, only some of which had evidentiary support.
The following factors were recounted over and over again by the prosecution
without evidentiary support in Petitioner’s case:
1) use of force,
2) potential violence,
3) execution of search warrants when the targets are known to be violent,
4) battering rams to violently smash down doors,
5) bullet-proof vests,

28

6) uncertainty whether there is violence on the other side of a drug trafficker’s
door,
7) guns found in nightstands,
8) guns found in closets,
9) guns found under beds,
10) drug ledgers,
11) co-conspirators,
12) traffic stops,
13) long-term, short-term traffic surveillance,
14) development of background for investigatory stops,
15) other targets of drug trafficking search warrants who turn and cooperate
with the government,
16) development of sources,
17) making controlled buys,
18) baggies and aluminum to package drugs for sale,
19) drugs packaged for sale,
20) money counters,
21) obtaining multiple search warrants,

29

22) execution of other search warrants,
23) various records to establish probable cause,
24) bank records,
25) utility records,
26) making controlled buys, and
27) the danger of death for an informant who offers an incorrect amount of
money to purchase drugs.
By means of the profile, Petitioner was disingenuously portrayed by the
prosecutors as a dangerous drug kingpin, whereas it is more likely prosecutors viewed
Petitioner as so insignificant that they were unwilling to identify a valuable
undercover source in order to convict him. Instead the strategy was to smear him with
a profile the jury would find reprehensible. This attitude could explain why the
prosecution pushed so hard from the beginning to obtain Petitioner’s cooperation
against his drug source, even offering cooperation to him at pre-trials and at the final
pretrial, and why the prosecution was vindictive when they did not obtain Petitioner’s
cooperation.
Petitioner admitted possession of drugs but never admitted to trafficking drugs
or to possession of a gun in furtherance thereof.
The evidence was not overwhelming.

30

The sole issue in Petitioner’s trial concerned intent to distribute the drugs he
possessed, i.e., whether or not he was a drug trafficker, and, as a consequence, whether
or not Petitioner possessed the gun in furtherance of such drug trafficking. The agent
claimed Petitioner made one illogical admission to having a single drug customer in
an interview which was not recorded nor corroborated either by Petitioner’s
subsequent actions or by other testimony or items of evidence (raising the possibility
that it could have been a miscommunication). It is illogical for a person to make an
admission which will convict him of drug dealing and then not pursue the benefits of
cooperation. At the very worst for Petitioner, this single, illogical, undocumented, and
uncorroborated admission should have been evaluated by the jury on its own merits,
not against the backdrop of an avalanche of pre-packaged profile factors demanding
that Petitioner be treated as a drug dealer, especially when most of those factors did
not apply to Petitioner.
It was prosecutorial misconduct for the prosecutor to base his case upon profile
evidence. This error was so flagrant as to warrant reversal. Throughout the trial, the
prosecutor jumped back and forth between facts in profile factors and actions taken in
the investigation of Petitioner so as to blur distinction between the evidence and
profile factors, thereby misleading the jury and prejudicing Petitioner. It was
extensive. It was deliberate. Calling a detective as a star witness who had nothing to
offer except profile testimony, demonstrates that the error was part of a deliberate
smear to portray Petitioner as the quintessential drug dealing kingpin.
31

Most of the trial concerned drug profiles in the context of obtaining drug
trafficking search warrants and the dangers associated with executing them. None of
this proved nor was relevant to the elements of the crimes charged; its only conceivable
purpose was to prejudice Petitioner’s right to due process of law.
The overall strength of the evidence of intent to distribute was far from
overwhelming. Aside from the one illogical undocumented uncorroborated purported
admission, the remainder of the evidence showed a drug addict in possession of drugs.
The other items were more consistent with personal drug use than with intent to
distribute.
This Court has recognized that prosecutorial misconduct may “so infec[t] the
trial with unfairness as to make the resulting conviction a denial of due process.”
Donnelly v. DeChristoforo, 416 U.S. 637, 643 (1974). To constitute a due process
violation, the prosecutorial misconduct must be “ ‘of sufficient significance to result in
the denial of the defendant's right to a fair trial.’ ” United States v. Bagley, 473 U.S.
667, 676 (1985) (quoting United States v. Agurs, 427 U.S. 97, 108 (1976)). Such was
the case here.
The prosecution’s tactics also constituted plain error as: (1) there was legal error
(admission of profile testimony as substantive evidence of guilt); (2) the error was
clear; (3) the error affected substantial rights (evidence of intent to distribute was

32

weak); and (4) the error seriously affected the fairness, integrity, or public reputation
of the judicial proceedings.
This trial represents another example of an African American who knows he
was given unfair treatment and knows the courts do not seem to care. Such treatment
when repeated breeds rage and disrespect for the entire criminal justice system.
Lower courts need guidance. The proper use of profile evidence needs to be
delineated. This trial was a travesty. Petitioner’s convictions for Drug Possession with
Intent to Distribute and Possession of a Firearm in furtherance of a Drug Trafficking
Offense were obtained by the misuse of profile evidence in violation of Petitioner’s
right to due process as guaranteed by the Fifth Amendment to the United States
Constitution and should be vacated.
2. Because this court has not determined if the cumulative error doctrine
exists and whether errors to which no objections are made may be
accumulated.

Here there was an accumulation of error through deliberate prosecutorial
misconduct by the illegitimate use of profile evidence (as described in Reason 1), by
bolstering, and by an impermissible “community protection” argument. These errors
so infected the trial with unfairness as to make the resulting conviction a denial of
due process by inducing the jury to decide Petitioner’s guilt or innocence from
impermissible factors, not from admissible evidence, calling into question the
integrity of the process.
33

The body of law that affirms convictions if there is significant evidence of
guilt, no matter how severe a prosecutor’s misconduct, is susceptible to abuse. In
such a situation, Prosecutors have learned that they can “get away with” almost
anything. The result is a criminal justice system that is dirty and denies defendants
a fair trial breeding disrespect and rage. Petitioner asks the court to review other
petitions seeking certiorari over the last few years to appreciate the prosecutorial
abuses which have become commonplace. This Court’s opinion delineating the proper
duties of a prosecutor in Berger v. United States, 295 U.S. 78 (1935), has become in
practice, perhaps, one of the most irrelevant documents in American criminal
jurisprudence.
Present counsel could find no decision by this Court concerning cumulative
error. Lower courts have acknowledged the doctrine. See, e.g., Cooper v. Sowders,
837 F.2d 284, 286 (6th Cir.1988); Walker v. Engle, 703 F.2d 959, 968 (6th Cir.1983).
However, if only errors to which objection is made can be accumulated the doctrine
becomes all but meaningless, as presumably, such errors have been ameliorated
already. By the same token if errors to which no objection is made can only be
accumulated if they amount to plain error, again the doctrine becomes meaningless
because if errors amount to plain error the conviction is reversed without the need
for a cumulative error doctrine. A decision by this Court would clarify the doctrine of
cumulative error for lower courts.
As referenced above, this Court has recognized that prosecutorial misconduct
34

may so infect the trial with unfairness as to make the resulting conviction a denial of
due process.” DeChristoforo, supra.
Petitioner’s constitutional right to a fair trial was violated, not only by the
prosecutor eliciting massive amounts of profiling evidence as substantive evidence of
guilt as referenced in reason 1 and obsessing over the dangers of drug investigations
and drug search warrants presented, but also by a flagrant “community protection”
argument and by bolstering.
Just as the prosecution had obsessed over the dangers of drug investigations
and drug search warrants, throughout the trial the prosecution stressed Petitioner’s
non-cooperation in helping to prosecute his drug source as a danger to the jury.
Petitioner’s cooperation or non-cooperation had nothing to do with the elements of
the crimes charged. It could not advance the government’s legitimate proof. It could
only serve to prejudice Petitioner in the eyes of the jury.
The court unwittingly set the stage for a “community protection” argument by
instructing the jury in Voir Dire as follows: “Now, you hear ‘United States of
America’ or ‘State of Ohio’ instead of an actual victim's name because … a crime
against one person is a crime against everyone within that jurisdiction. … It would
be the Governmental entity, United States of America or State of Ohio, and again
because a crime against you is a crime against everyone within that jurisdiction.
“So that's why -- let's say for the sake of argument you were a victim of an
aggravated robbery. It's not your name, John Doe or Jane Doe, versus the person
35

that you allege committed the crime. It would be the Governmental entity, United
States of America or State of Ohio, and again because a crime against you is a crime
against everyone within that jurisdiction.”
In its opening statement, the prosecution told the jury that Petitioner had
refused to name his drug source or to cooperate. The agent testified that he
attempted to acquire Petitioner’s cooperation at their initial confrontation and again
a month later. Both times Petitioner refused.
The theme of danger to the community was continued when the prosecution
hammered away at the dangers of drug dealing. The agent and the detective testified
at great length supra to all sorts of dangers resulting from drugs and investigations
of drug cases. These dangers were repeated over and over again throughout the trial.
This was the backdrop for the prosecution’s closing arguments.
In its closing argument, the prosecutor flagrantly argued that Petitioner was a
threat to the jury’s safety and implied that because of Petitioner’s non-cooperation
the drug problem facing the jurors’ community would continue.
The prosecution argued in its close that Petitioner’s drugs were not just
heroin, a poison which is bad enough, but that Petitioner had stronger drugs, such as
Fentanyl, Carfentanil, and cocaine. The prosecution continued that Petitioner was
“out there” selling “a substance so dangerous and so deadly” that experts had to take
extra precautions to keep from touching it or even breathing its fumes. The
prosecution argued that the Detective had explained that the citizens of the
36

Northern District of Ohio who used this drug, comprised of many compounds, were
the “testers” regarding its lethality.
The jury inevitably must have been left with the impression that Petitioner
was a threat to their safety and that his refusal to cooperate put them at risk, which
was an impermissible “community protection” argument.
Such argument directs jurors’ desires to end a social problem or to deter
future lawbreaking to persuade them to convict a particular defendant, and thus is
error and highly prejudicial
The obvious evil lurking in such an appeal is that the defendant will be
convicted for reasons wholly irrelevant to the evidence of his guilt or innocence, as
with improper drug profile evidence.
A constant theme of the prosecution was to obtain a conviction based upon
reasons which were not founded upon legitimately presented evidence.
Lower courts have prohibited appeals to a jury to combat the drug problem in
the ongoing war on drugs, as they are inflammatory in the contemporary climate.
See, e.g., United States v. Solivan, 937 F.2d 1146, 1153 (6th Cir.1991), despite a
curative instruction by the court; United States v. Hawkins, 595 F.2d 751
(D.C.Cir.1978), cert. denied, 441 U.S. 910 (1979); United States v. Barlin, 686 F.2d
81 (2d Cir.1982).
Petitioner’s constitutional right to a fair trial was also violated when the
prosecutor unfairly bolstered the prosecution’s evidence. Lower courts have held that
37

bolstering occurs when a prosecutor implies that the witness's testimony is
corroborated by evidence known to the government but not known to the jury.
United States v. Sanchez, 118 F.3d 192, 198 (4th Cir.1997). Lower courts have held
that a prosecutor may ask a government agent whether he was able to corroborate
what he learned in the course of a criminal investigation but if the prosecutor
pursues this line of questioning, he/she must also draw out testimony explaining
how the information was corroborated and where it originated. United States v.
Francis, 170 F.3d 546, 551 (6th Cir. 1999). See also United States v. Lewis, 10 F.3d
1086, 1089 (4th Cir.1993).
In its opening statement the Government told the jury that they would hear
that, based upon intelligence the agent had gathered (which was never disclosed),
the agent obtained a search warrant for Petitioner’s residence and vehicle seeking
evidence of trafficking of fentanyl and heroin, and possession of firearms.
The agent testified that he determined from “sources” and “information”
(which “sources” and “information” were never disclosed) that Petitioner was
trafficking in heroin and drugs. Thus, the agent testified that he obviously was able
to persuade a court that Petitioner was trafficking, which was the basis upon which
he obtained the search warrant.
The court prohibited any inquiry concerning the confidential source that
provided “intelligence” that Meadows was dealing drugs by the following.
[Prosecutor]: Mr. Meadows said in open court "I told you where the gun
38

were and I told you where the drugs were. My problem is about the
confidential source, why they aren't here," is what he said in open court. I'm
not going to talk about the source.
[Defense counsel]: That's what I was talking about.
[THE COURT]: No, you cannot, you cannot talk about the confidential
source.
[Defense counsel]: Okay. All right.
[Prosecutor]: And, listen, I've not prepared him that I'm going to ask
him

that question. If he starts to go into it, just object because I'm not going to
ask him about the confidential source.
[THE COURT]: I'll stop him.
In his testimony the agent was asked how he handled Petitioner’s case and

testified, “When I -- the investigation culminated to the point where I had probable
cause, I obtained a search warrant and determined that [Petitioner] was trafficking
in heroin and drugs, and got the search warrant.”
In its rebuttal closing argument, the prosecution argued that “law
enforcement are the experts, right?” thus implying that the testimony of law
enforcement should not be weighted for credibility like other testimony but simply
accepted as true. Then, after conceding that the prosecution presented no testimony
of hand to hand drug transactions, the prosecution asked the jury to recall what the
agent did to obtain the search warrant, calling to the jury’s attention the undisclosed
39

“intelligence” the agent obtained which indicated to the agent’s satisfaction that
Meadows was a drug trafficker.
This Court held that in this situation it is incumbent upon the government to
demonstrate that a constitutional error, resulting from the admission of highly
prejudicial evidence or comment, is harmless beyond a reasonable doubt. Chapman
v. California, 386 U.S. 18, at 24, (1967). If there is any reasonable possibility that the
evidence or comment complained of might have contributed to the conviction, then
such error cannot be harmless beyond a reasonable doubt. The government has not
done so.
Accumulating errors, it is apparent that Petitioner’s due process right to a fair
trial was violated by deliberate prosecutorial misconduct. The essence of the
prosecution strategy was to establish intent to distribute based upon factors which
were prohibited or not established by the evidence. There is, at the very least, a
reasonable possibility that this prosecutorial misconduct might have contributed to
the conviction of Petitioner in a trial containing only ambiguous evidence of drug
trafficking.
Petitioner’s convictions for Drug Possession with Intent to Distribute and
Possession of a Firearm in furtherance of a Drug Trafficking Offense were obtained
in violation of Petitioner’s right to due process as guaranteed by the Fifth
Amendment to the United States Constitution and should be vacated.
CONCLUSION
40

Petitioner, Michael Meadows, requests that this Court grant certiorari, reverse
the Sixth Circuit’s affirmance, and remand for further proceedings.

Respectfully submitted,

Gregory C. Sassé LLC
6642 Silvermound Drive,
Mentor, Ohio 44060
Telephone No: 440-488-1919
Facsimile No: (440) 974-8194
gregory.sasse@gmail.com

Counsel for Petitioner

41

APPENDIX
1.

COURT OF APPEALS OPINION August 7, 2020.

42

